      United States Department of Agriculture




Office of Inspector General
In re Black Farmers
Discrimination Litigation




                                       50601-0001-21

                                       December 2013
                                         In re Black Farmers Discrimination Litigation

                                                    Audit Report 50601-0001-21




What Were OIG’s
Objectives
The Claims Resolution Act of
2010 required OIG to conduct      OIG conducted a performance audit of the
a performance audit based on      claims process for the BFDL settlement
a statistical sample of           based on a statistical sample of
adjudicated claims for BFDL.
This report reflects audit work   provisionally adjudicated claims.
that was performed prior to the
final adjudication of claims.
We plan to complete               What OIG Found
additional audit work on
adjudicated claims.               Before the deciding official (known as the Neutral) finalized decisions
                                  regarding In re Black Farmers Discrimination Litigation (BFDL)
What OIG Reviewed                 claims, the Office of Inspector General (OIG) conducted audit work to
                                  evaluate the integrity and consistency of the processes applied to
We performed tests on             claimants. Overall, nothing came to our attention to indicate that the
100 randomly selected claims      claims process was not implemented in accordance with the BFDL
from a universe of                settlement agreement. However, we identified three findings:
17,124 provisionally
adjudicated claims, as of            ·   The Neutral’s adjudicators reached different conclusions for
June 11, 2012.                           claims that essentially contained the same information. For
                                         claims that were similar, they approved some and denied
What OIG Recommends                      others. We identified 8 such claims in our random sample of
                                         100 claims.
The Neutral and the CA have
taken action to address the          ·   The Claims Administrator (CA) had not identified all
concerns we brought to their             instances where multiple claims may have been filed for a
attention during the course of           single farming operation or an individual class member. We
our audit; therefore, we are             identified 7 such claims in our random sample.
making no formal                     ·   The Neutral had provisionally approved at least 20 persons
recommendations at this time.            who were ineligible for a BFDL award because they had
                                         participated in the Pigford v. Glickman settlement.

                                  We discussed these issues with officials from the CA and the Neutral
                                  in June 2013. After our meeting, the CA and the Neutral provided us
                                  with documentation that supported the actions they had taken,
                                  demonstrated how they addressed each of our findings, and detailed
                                  additional actions they planned to take prior to the final adjudication
                                  of claims. Their stated actions should mitigate our audit findings. We
                                  plan to test the effectiveness of the actions in a subsequent audit.
                          United States Department of Agriculture
                                  Office of Inspector General
                                   Washington, D.C. 20250




DATE:          December 4, 2013

AUDIT
NUMBER:       50601-0001-21

TO:           Thomas J. Vilsack
              Secretary

FROM:         Phyllis K. Fong
              Inspector General

SUBJECT:      In re Black Farmers Discrimination Litigation, 50601-0001-21

This is to advise you that we have completed our audit of the In re Black Farmers Discrimination
Litigation claims process in accordance with the Claims Resolution Act of 2010 (Public
Law 111-291). The Claims Resolution Act of 2010 prescribes that we provide a copy of our final
report to your office and to the Attorney General. Since we made no recommendations in the
report, no further action is required by any of the parties.

Should you have any questions, please do not hesitate to contact me at (202) 720-8001, or have a
member of your staff contact Gil H. Harden, Assistant Inspector General for Audit, at
(202) 720-6945. A similar letter is being sent to the Attorney General.

Attachment

cc: (with attachment)
Krysta Harden, Deputy Secretary of Agriculture
Ramona Romero, General Counsel, Office of the General Counsel
Michael Scuse, Under Secretary, Farm and Foreign Agricultural Services
Dr. Joe Leonard, Assistant Secretary for Civil Rights
Juan M. Garcia, Administrator, Farm Service Agency
Brandi Peters, Senior Counsel, Office of the General Counsel
Michael Sitcov, Assistant Director, U.S. Department of Justice
Tamra Moore, Trial Attorney, U.S. Department of Justice
Table of Contents

Background and Objectives ................................................................................... 1
Section 1: Track A Claims .................................................................................... 8
Finding 1: Inconsistent Provisional Adjudication of Claims ............................. 8
Finding 2: Multiple Claims Filed for Individual Farming Operations and
Class Members Not Detected ............................................................................... 14
Section 2: Class Membership Determination .................................................... 18
Finding 3: Pigford Participants Applied for BFDL Awards............................ 18
Scope and Methodology ........................................................................................ 22
Abbreviations ........................................................................................................ 24
Exhibit A: Statistical Plan ................................................................................... 25
Exhibit B: BFDL Claim Form ............................................................................ 27
Exhibit C: Claims Administrator’s Response ................................................... 42
Background and Objectives
Background
Introduction

In response to the requirement set forth in the Claims Resolution Act of 2010 (the Act), the
Office of Inspector General (OIG) performed an audit of the In re Black Farmers Discrimination
Litigation (known as BFDL) claims process. The Act states that OIG “shall, within 180 days of
the initial adjudication of claims, and subsequently, as appropriate, perform a performance audit
based on a statistical sampling of adjudicated claims.”1

We initiated our audit in January 2012 in order to gain an understanding of the claims
adjudication process and prepare for the statistical selection of adjudicated claims.2 During the
audit, we learned that the entities implementing the BFDL settlement, specifically Class Counsel,
the Claims Administrator (CA), and the Track A and B Neutral, discussed in detail later in the
report, agreed to make preliminary (provisional) adjudications that would be subject to change
until the end of the claims process. The entities also informed us that final adjudications were
expected to occur in the late summer or early fall of 2012. Based on this timeframe, we
continued to review the entities’ claims process and we selected a random sample of
provisionally adjudicated claims in June 2012. We proceeded with our audit, based on the
expectation that all claims would soon have final decisions. Once the decisions were final, we
planned to update our first sample with any changes, so that we would have reviewed
“adjudicated” claims, as specified in the Act. However, final adjudication did not occur in the
fall, as expected, and the claims process at that time was not yet finished.3

Once the majority of the claims were provisionally adjudicated, the entities implementing the
settlement agreement began performing more widespread quality control measures.4 The timing
of these measures gave us the opportunity to ensure that the process was functioning adequately
and that claimants were treated fairly. In connection with our audit, nothing came to our
attention to indicate that the administrative entities were not adequately implementing the claims
process in accordance with the BFDL settlement agreement. However, we identified issues at
the time of our review that needed to be addressed prior to final adjudication. Therefore, we
discussed our findings with the entities, and they described actions they have taken, or plan to
take, to resolve our concerns. In addition, they provided us with written procedures and
preliminary results to support these actions, but we have not tested the overall effectiveness of
their efforts. We plan to test these areas in a subsequent audit.



1
  Claims Resolution Act of 2010, 111 Pub. L. No. 291, Tit. II, § 201(h)(2)(A).
2
  As noted in Exhibit A, we developed a random statistical sample and used a simple random sample design to help
achieve our objective. We will use “random” to describe our sample throughout the report.
3
  On August 6, 2013, Class Counsel filed a motion with the U.S. District Court for the District of Columbia that
finalized the adjudication of claims. The judge approved the motion on August 23, 2013.
4
  These quality control measures are discussed in more detail later in the report.

                                                                       AUDIT REPORT 50601-0001-21              1
History of the BFDL Settlement

In 1997, a group of African-American farmers brought suit against the Department of
Agriculture (USDA) for alleged discriminatory actions based on their race when they applied for
or received farm credit, credit servicing, and non-credit farm benefits. This case was called
Pigford v. Glickman5 (known as Pigford). On April 14, 1999, the U.S. District Court for the
District of Columbia (the Court) approved the Pigford consent decree, which gave class
members who did not opt out6 180 days, until October 12, 1999, to submit claim packages.
Approximately 20,000 individuals filed claims within the 180-day deadline. Later, a filing
extension was approved for individuals who could show that their late-filing request was due to
“extraordinary circumstances.”7 By September 15, 2000, there were approximately
61,000 individuals who attempted to satisfy the “extraordinary circumstances” criteria, but only
2,700 were successful and allowed to participate in Pigford. Between September 16, 2000, and
June 18, 2008, over 28,000 additional individuals unsuccessfully sought to participate in Pigford.

The 2008 Farm Bill8 created a new cause of action for unsuccessful late filers in Pigford by
designating $100 million to pay claims. The Claims Resolution Act of 2010 authorized an
additional $1.15 billion for BFDL claims. The Court granted final approval of the BFDL
settlement agreement on October 27, 2011.9 Under the terms of the court order approving the
settlement agreement, the period to submit claims began on November 14, 2011, and ended on
May 11, 2012. Specific groups of claimants received an extension to submit claims until
October 12, 2012.10

Terms of the Settlement Agreement

The settlement agreement’s terms were negotiated for almost 2 years by Class Counsel, which
represented the class, and the Department of Justice (DOJ), which represented USDA.
According to the Court, the settlement agreement was developed to balance the need for an
accurate determination of claims against the practical reality that most class members would
probably not be able to meet the stringent evidentiary standards required in traditional litigation
to prove their claims.11 When the Court evaluated the settlement agreement, it considered
whether the structure of the settlement and the substantive relief were fair and reasonable when
compared with the recovery those plaintiffs likely would have realized if their claims were
decided through the judicial process. Based on this consideration, the judge concluded that the

5
  Pigford v. Glickman, 185 F.R.D. 82 (D.D.C. 1999).
6
  The “Pigford Opt-Out List” documents individuals who chose not to participate in the Pigford consent decree.
7
  “Extraordinary circumstances” included the effects of Hurricane Floyd and lateness due to illness or disabilities
that made individuals homebound and, therefore, unable to meet specified deadlines.
8
  Food, Conservation, and Energy Act of 2008, P.L. No. 110-246, § 14012.
9
  The term “settlement agreement” used throughout the report refers to the In re Black Farmers Discrimination
Litigation Settlement Agreement.
10
   On September 14, 2012, a filing extension was granted by the judge for individuals in different categories who
generally: (1) requested a claim form prior to May 11, 2012, but were sent a form after May 1, 2012; or
(2) submitted a late filing request for Pigford prior to June 18, 2008, that did not get evaluated and, therefore, did not
receive a claim form. In addition, applicants who previously filed incomplete claims were given another
opportunity to complete their claims.
11
   See the U.S. District Court Judicial Order and Opinion approving the settlement agreement filed
October 27, 2011, Misc. No. 08-0511.

2      AUDIT REPORT 50601-0001-21
settlement was fair, adequate, and reasonable, and the adjudication process would subject each
claim to a careful and rigorous review, while keeping costs in check.

The settlement agreement also explains the requirements for obtaining a claim determination.
Claimants had to choose one of two different approaches to file a claim: Track A or Track B.
Track A claims required a substantial evidence12 standard of proof, and will award successful
claimants a payment of up to $62,50013 for credit claims and/or up to $3,75014 for non-credit
claims.15 However, all Track A awards may be proportionally reduced based on the total number
of approved claims.16 In addition, Track A claimants may also receive reductions of outstanding
debt owed to USDA’s Farm Service Agency (FSA). Track B filers had to meet a higher standard
of proof, called preponderance of the evidence.17 If this higher standard of proof is met,
successful claimants will receive the amount of their actual damages, up to $250,000. Attorney
fees, in addition to the award payment, will be paid for approved claimants under both tracks as
part of the settlement.

In addition, the settlement agreement requires each individual to be a class member.18 To be a
class member, an individual must have submitted a late-filing request in Pigford and have not
obtained a determination on the merits of his or her discrimination complaint. The Pigford
Timely 5(g) List,19 which includes the names and addresses of more than 89,000 people,
identifies individuals who submitted late-filing requests under Pigford. Individuals who
“participated” in the Pigford settlement are prohibited from participating in the BFDL
settlement.20 Participation is defined as having obtained a determination (approved or denied) on
their discrimination claim in Pigford;21 having opted out of Pigford; or having obtained a

12
   The BFDL settlement agreement, dated February 18, 2010 (revised and executed as of May 13, 2011), page 23,
states that substantial evidence is such evidence that a reasonable person might accept as adequate to support a
conclusion, after taking into account other evidence in the record that fairly detracts from that conclusion.
Substantial evidence is a lower standard of proof than a preponderance of the evidence.
13
   The $62,500 payment amount consists of up to a $50,000 monetary award to the claimant and up to a
$12,500 payment to the Internal Revenue Service to offset the tax liability of the monetary award.
14
   The $3,750 payment amount consists of up to a $3,000 monetary award to the claimant and up to a $750 payment
to the Internal Revenue Service to offset the tax liability of the monetary award.
15
   Credit claims reflect situations where individuals applied for credit programs, such as operating loans, which must
be repaid. Non-credit claims reflect situations where individuals applied for non-credit benefit programs, such as
crop insurance, which if received, do not need to be repaid.
16
   If the amount of funding available is sufficient to fully pay Track A and Track B awards, no reductions will be
applied. However, if the funds available are insufficient to fully pay Track A and Track B awards, the settlement
agreement provides that Track B awards will first be reduced proportionally until their sum equals the Track B cap.
If necessary, awards to be paid to claimants who submitted late-filing requests in Pigford after September 15, 2000,
will then be reduced by up to 30 percent. If funds are still insufficient, all awards will be proportionally reduced
until the total of all awards equals the amount of funds available.
17
   The settlement agreement defines preponderance of evidence as evidence “as is necessary to prove something is
more likely true than not true.”
18
   The BFDL settlement agreement dated February 18, 2010 (revised and executed as of May 13, 2011), page 15,
section V.
19
   The “Pigford Timely 5(g) List” identifies those individuals who submitted late-filing requests under Section 5(g)
of the Pigford Consent Decree after October 12, 1999, and on/or before September 15, 2000.
20
   The BFDL settlement agreement dated February 18, 2010 (revised and executed as of May 3, 2011), pages 20-21,
section V.B.4(b).
21
   As noted in the CA’s response to this report (see Exhibit C), timely submitted Pigford claims that were rejected
because they were incomplete are also considered to have obtained a determination.

                                                                          AUDIT REPORT 50601-0001-21                3
judgment from a judicial or administrative forum on the basis of their discrimination claim.22 If
a person appears on either the Pigford Participants List23 or Pigford Opt-Out List,24 which
consist of over 24,000 names and addresses, he or she will be considered ineligible to participate
in BFDL.

Administrative Entities

There are three main entities charged with carrying out the terms of the settlement agreement.
The first entity, Class Counsel, is responsible for the overall implementation of the settlement
agreement. Class Counsel initiated actions to inform the class members about the settlement
agreement and helped them complete and submit their claims. Class Counsel held more than
380 Claim Form Assistance Meetings, during which assistance was provided to help claimants
complete and file almost 12,000 of the nearly 40,000 submitted claims.25

The second entity, the CA, was hired by Class Counsel with the Court’s approval to prepare,
send, and receive all claims correspondence. The CA also determined whether each claim was
timely and complete and whether each applicant was eligible to participate. The CA maintained
a call center where operators received more than 620,000 phone calls to provide claimants
information or to answer their questions. The CA also transferred over 27,000 phone calls to a
Class Counsel phone assistance line.

Finally, Class Counsel hired one firm,26 approved by the Court, to serve as the Track A and
Track B Neutrals. The firm employed adjudicators27 who determined the merits of the claims
submitted under the tracks. Prior to reviewing any claims, each adjudicator received training and
took an oath administered by the Court that he or she would determine each claim faithfully,
fairly, and to the best of his or her ability.

Track A Claims Adjudication

The CA sent timely, complete, and eligible Track A claims to a law firm28 that supported the
Track A Neutral in the adjudication process for an “initial review.” A quality control team
within the law firm then examined every eligible claim a second time. The law firm formulated
a conclusion on every eligible claim, which served as the first quality control measure of the


22
   The BFDL settlement agreement dated February 18, 2010 (revised and executed as of May 13, 2011),
pages 20-21, section V.B.4 (a-b).
23
   The “Pigford Participants List” identifies those individuals who (1) submitted a claim under the Pigford Consent
Decree on or before October 12, 1999, or (2) submitted a late-filing request under 5(g) of the Pigford Consent
Decree after October 12, 1999, which was determined by the Pigford Arbitrator to satisfy the “extraordinary
circumstances” requirement.
24
   The “Pigford Opt-Out List” documents the individuals who chose not to participate in the Pigford Consent
Decree.
25
   The CA had received almost 40,000 claims as of July 12, 2013.
26
   This firm is a provider of alternative dispute resolution services, including claims adjudication and arbitration.
27
   According to the Track A Adjudication Guidelines, an adjudicator is an individual responsible for granting or
denying individual claims pursuant to the settlement agreement. There were 17 adjudicators who reviewed Track A
and B claims.
28
   The Neutral retained the services of a law firm which specializes in claims resolution and data management.

4     AUDIT REPORT 50601-0001-21
adjudication process. Each claim, along with the law firm’s conclusions regarding it, was then
sent to the Neutral.29 The Neutral reviewed the claim and made a provisional adjudication
decision. The Neutral was not bound to adjudicate the claims consistent with the law firm’s
“initial review” and conclusions. Claims underwent additional reviews by more experienced
adjudicators30 and the Track A Chief Adjudicator as a result of quality control procedures the
Neutral implemented, which are discussed in the Implementation of Quality Control Procedures
section below and later in the findings.

Track B Claims Adjudication

The CA sent eligible claims to the Chief Adjudicator of Track B, who reviewed all the claims
submitted for this track.31 To make adjudication determinations, the Chief Adjudicator evaluated
all parts of the claim form required for Track A. In addition, the Chief Adjudicator reviewed a
section on the claim form containing additional questions specifically required for Track B (see
Exhibit B, page 38 of the report). This section included questions about USDA’s treatment of
the claimant compared to its treatment of a similarly situated white farmer, and the amount of the
claimant’s economic damages. The Chief Adjudicator evaluated all sections of the claim form to
determine whether a claimant established each necessary element through independent
documentary evidence.

Unlike the Track A adjudication process, Track B claims did not receive an “initial review” by
an outside law firm. Rather, one adjudicator performed a quality control review of all the
Chief Adjudicator’s determinations. None of the Chief Adjudicator’s decisions changed based
on the quality control review. We selected and analyzed a random sample of 32 provisionally
adjudicated Track B claims,32 and found that all of them were processed in accordance with the
terms of the settlement agreement.

Implementation of Quality Control Procedures

The CA and the Neutral applied quality control measures throughout the claims process to ensure
payments would be made to eligible claimants. The Neutral’s quality control process included
additional tests and reviews, which could change the provisional decision on each claim. For
instance, the Neutral had its quality control team perform a second review of all denied claims.
The Neutral also contracted with statisticians to perform periodic analyses of the
approved/denied counts of each adjudicator to determine if the provisional outcomes were
reasonably consistent across adjudicators.

The CA also implemented quality control measures to oversee its process and determinations.
For instance, the CA performed periodic secondary reviews to monitor whether its staff

29
   The term “Neutral” used throughout the report will specifically refer to the Track A Neutral.
30
   This senior team of adjudicators gained their extensive experience from participating in the claims review process
of Pigford.
31
   As of July 12, 2013, the Track B universe consisted of 77 claims.
32
   We selected our Track B sample as of December 6, 2012, when there were 80 claims in the universe. After we
selected our sample of Track B claims, the CA denied claims due to the lack of class membership, untimely filing,
or because the claims were incomplete. As a result, the number of Track B claims decreased between
December 6, 2012, and July 12, 2013.

                                                                          AUDIT REPORT 50601-0001-21                5
processed claims correctly before they were sent to the Neutral for adjudication. The CA
conducted a second review of all incomplete claims before letters requesting necessary
information were sent to claimants.

Fraud Concerns

The Neutral identified more than 50 suspicious filing patterns. Patterns were established based
on commonalities across multiple claim forms, such as similar language, handwriting, format,
phraseology, and geographic location. The Neutral concluded that these patterns could
undermine the claims’ credibility, due to similarities among large numbers of claims. These
patterns were provided to the CA, which searched the entire universe for claims with matching
attributes, and identified approximately 4,000 matching claims. The Neutral performed an
additional review of these claims and determined that approximately 2,500 presented fraud
concerns sufficient to merit the denial of the claim.

We analyzed over 200 of the approximately 4,000 claims the CA identified based on the
Neutral’s patterns. Our review encompassed 8 of the 50 fraud concern patterns33 that the Neutral
identified as “suspicious.” Our analysis consisted of determining whether the Neutral’s
definitions of the suspicious patterns were reasonable, and whether the identified claims actually
contained the questionable attributes associated with the patterns. We generally agreed that the
Neutral’s stated patterns were reasonable, and that the suspicious claims did include the specified
attributes.

Government Accountability Office (GAO) Oversight

The Act also required GAO to perform an audit of the administration of the BFDL settlement
agreement. GAO evaluated the internal controls (including internal controls concerning fraud
and abuse) created to carry out the terms of the settlement agreement. In a report issued in
December 2012, GAO stated that, while the internal control design of the BFDL claims process
generally provided reasonable assurance that fraud or invalid claims would be identified and
denied, certain weaknesses in the control design could expose the claims process to a risk of an
improper determination.34 GAO noted that constraints were imposed by the terms of the
settlement agreement (for example, the settlement agreement does not require that claimants
submit supporting documentation for Track A claims), and these constraints could not be
modified, as they were agreed to by all parties.

GAO also reported the CA had not established agreed upon procedures, beyond consulting the
participant lists of two other discrimination settlements,35 for checking whether applicants had


33
   At the time of our analysis, the Neutral had provided definitions for 8 of the 50 fraud concern patterns. We will
review this area further in a subsequent audit.
34
   GAO-13-69R: “Additional Actions in Pigford II Claims Process Could Reduce Risk of Improper
Determinations,” December 2012.
35
   The two additional settlements are: (1) Keepseagle, which arose from the Keepseagle v. Vilsack (1999) case and
(2) Hispanic and Women Farmers and Ranchers Claims Resolution Process, which arose from the Garcia v. Vilsack
(2000) and Love v. Vilsack (2000) cases. The CA stated in its written response to the report that it checked
participant lists for the settlements in Pigford and Keepseagle. The CA did not check the participant list for the

6     AUDIT REPORT 50601-0001-21
already obtained a judgment on a discrimination case in a judicial or administrative forum.
Lastly, because the internal control design had not yet been fully implemented, GAO was unable
to determine if the remainder of the design would operate as intended. For example, controls yet
to be fully implemented include (1) the identification of duplicate and multiple claims submitted
on behalf of the same farming operation or class member, and (2) the verification of the
timeliness of claim determinations.

Responses to Official Draft Report

We provided an official draft report to the administrative entities on August 29, 2013, and
requested they provide a written response to be included in the final audit report. The CA
provided a written response on September 27, 2013 (see Exhibit C) that includes clarifications to
information in the Background section of this report. Class Counsel did not provide a written
response to the draft report, but verbally suggested revisions on October 24, 2013. The Neutral
did not provide a written response to the draft report.

OIG Position

We appreciate the responses, and have adjusted the report, where appropriate, based on the
provided information.

Objectives
The Claims Resolution Act of 2012 required OIG to conduct a performance audit based on a
statistical sample of adjudicated claims for BFDL.36 This report reflects audit work that was
performed prior to the final adjudication of claims. We plan to complete additional audit work
on adjudicated claims.




Hispanic and Women Farmers and Ranchers Claims Resolution Process as the claims process was ongoing and final
determinations had not been made at that time.
36
   We performed an audit of both Tracks A and B.

                                                                     AUDIT REPORT 50601-0001-21            7
Section 1: Track A Claims
Finding 1: Inconsistent Provisional Adjudication of Claims
Our review found that the Neutral’s adjudicators reached different conclusions for claims that
essentially contained the same information. Specifically, the adjudicators approved some of the
similar claims, but denied others. We selected a random sample of 100 claims from the universe
of 17,124 provisionally adjudicated claims, as of June 11, 2012.37 From our random sample
of 100, there were a total of 8 claims with inconsistent decisions. For these eight claims, the
claimant did not adequately describe a complaint of discrimination to a Government official.
The inconsistent decisions occurred due to the different perspectives and judgments of the
adjudicators38 who examined the claim forms. Also, at the time we performed our analysis, the
Neutral’s quality control reviews had no method to detect all the inconsistencies after they
occurred. We estimated at the time of our analysis that there were 1,370 provisionally
adjudicated claims with inconsistent decisions.39 The Neutral has since taken actions to ensure
all claims will be evaluated consistently, which are explained later in this finding.

The Judicial Order and Opinion40 approving the settlement agreement states that the adjudication
process needs to ensure that awards go to those who “were victims of USDA’s discrimination.”
The Judicial Order and Opinion states that numerous measures were established to warrant fair,
reasonable, and adequate decisions. To ensure fair results, the Neutral conducted training for the
adjudicators, provided written guidance to each adjudicator,41 and put in place quality control
measures prior to making claim decisions. Adjudicators’ decisions were based on requirements
set forth in the settlement agreement, which stated that a class member (claimant) needed to
establish six elements,42 such as the class member being an African-American, with substantial
evidence.43

According to the Neutral, claimants had difficulty describing their complaint of discrimination.44
As of March 31, 2013, 96 percent45 of total denied claims were denied on the basis that claimants
did not prove a complaint of discrimination. For question 7G, the claim form asked claimants to
check a “Yes” or “No” box to answer if they complained of discrimination to an official of the

37
   Exhibit A–Statistical Plan.
38
   There were 17 adjudicators responsible for examining claim forms.
39
   We are 95 percent confident there are between 446 (2.6 percent) and 2,294 claims (13.4 percent) with inconsistent
decisions in the universe of 17,124 provisionally adjudicated claims that had been submitted, as of June 11, 2012.
40
   U. S. District Court Judicial Order and Opinion, October 27, 2011, Misc. No. 08-0511.
41
   In re Black Farmers Track A Adjudication Guidelines, provided to OIG on February 13, 2012 (amended
August 1, 2012).
42
   The BFDL settlement agreement dated February 18, 2010 (revised and executed as of May 13, 2011), page 22,
section V.C.1.
43
   According to the BFDL settlement agreement dated February 18, 2010 (revised and executed as of May 13, 2011),
page 23, section V.C.1, substantial evidence is such evidence that a reasonable person might accept as adequate to
support a conclusion after taking into account other evidence in the record that fairly detracts from that conclusion.
44
   According to the BFDL settlement agreement dated February 18, 2010 (revised and executed as of May 13, 2011),
page 23, section V.C.1.f, the class member must establish a complaint of discrimination.
45
   As of March 31, 2013, there were 32,208 provisionally adjudicated claims and information from the CA’s
database indicated that 11,896 of 12,337 total denied claims were denied on the basis that claimants did not prove a
complaint of discrimination.

8     AUDIT REPORT 50601-0001-21
U.S. Government before January 1, 1997. In addition, for question 7G.i, each claimant was
asked to explain: (1) when the complaint was made, (2) how he or she complained, (3) to whom
in the U.S. Government he or she complained, and (4) what he or she complained about (a copy
of the claim form is included as Exhibit B, and 7G.i can be seen on page 35 of this report).

We compared claimant answers for questions 7G and 7G.i on the claim forms from our random
sample against the requirements of the settlement agreement and the written guidance the
Neutral provided to its adjudicators. We identified eight claims with written responses that did
not adequately state the complaint of discrimination. The claimant’s answers for three claims
only included the name or description of the U.S. Government official to whom they
complained, and did not address components (1), (2), and (4), listed above—the Neutral had
approved all three claims. We also noted that five other claims in our sample described the
discrimination experienced, but did not specifically address the four components of the question
(the Neutral approved three of these claims and denied two others).

Based on the results of our sample, we expanded testing to include all claims with a provisional
adjudication. The sections below describe our analysis and results related to the 8 sample
claims, as well as other claims in the universe of 17,124 claims (as of June 11, 2012).

       Implications of Checking “Yes” in the 7G Question Box

       The first part of question 7G asked the claimant to check “yes” or “no” in response to the
       following question: “Did the claimant complain of discrimination to an official of the
       United States Government on or before July 1, 1997, regarding USDA’s treatment of him
       or her in response to his or her application(s) or attempt(s) to apply?” The next question,
       7G.i, asked claimants to describe when, what, how, and to whom they made a complaint.

       We found three claims in our sample where claimants’ written answers identified a
       U.S. Government official, but did not describe the circumstances of the complaint. The
       Neutral had provisionally approved all three claims. The adjudicators who approved the
       claims noted (both in our sample and in other similar approved claims) that, because the
       claimants had checked “yes” to the question, it inferred or implied that the other three
       requirements of the question were present (i.e., when, how, and what the claimant had
       complained about). No claims in our sample were denied due to this issue.

       The Neutral’s written guidance states that if a claimant checked “yes” for question 7G, it
       can be inferred that a complaint was made timely and, therefore, a written response was
       not necessary to answer the question of when the complainant had made the complaint.
       However, the Neutral’s written guidance did not state that the other three components
       (i.e., what, how, and to whom) could also be inferred from a “yes” answer to the
       question. Still, in one of the three random sample claims, the adjudicator wrote, “It can
       be inferred that during his conversations with the county supervisor and his reference to
       USDA that he was making a complaint of discrimination.” The adjudicator provisionally
       approved this claim, based on an inference of when and a definite answer as to whom the
       claimant complained, but the claim lacked information on what the complaint was about
       or how it was made.

                                                             AUDIT REPORT 50601-0001-21            9
        To understand more about the adjudicators’ decision-making process on this issue, we
        decided to expand our review into the universe of claims.46 We used both automated and
        manual techniques to search for claims with brief answers to the question on
        discrimination, which could be similar to the three claims from our random sample.47 We
        discontinued our search after identifying 75 claims where the claimant only wrote a short
        description of the discrimination or provided only the name of the person to whom they
        complained. For the 75 claims, we found that adjudicators approved 25 claims, but
        denied 50 claims due to insufficient evidence. The results of our review of 75 claims,
        along with the results of our random sample, led us to the conclusion that additional
        questionable claims existed in the universe of provisional claims.

        We selected 20 of the 75 claims that, in our opinion, were similar to those in our sample
        because the claimants only indicated to whom they complained.48 Our review of the
        claims in their entirety49 disclosed that, although they were similar, the adjudicators had
        approved 10 of the claims and denied the other 10 claims. Therefore, if the Neutral does
        not review these claims for consistency, some claimants could be treated unfairly by the
        Neutral’s final decisions. The following example from two claims we analyzed
        illustrates our position. In both claims, the claimants answered “yes” to question 7G. For
        Claim 1, the adjudicator provisionally approved the claimant to receive up to $50,000.
        However, for Claim 2, the adjudicator provisionally denied the claim. (The adjudicators
        for the two claims were different). If the Neutral does not review these claims, one
        claimant will receive a monetary award and the other claimant will receive nothing, even
        though the two claimants submitted very similar claims. The claimants’ complete written
        responses to question 7G.i were as follows:

        •    Claim 1: “The USDA official in Covington County.”
        •    Claim 2: “He complained to the people in the USDA office in Collins, MS.”

        In the remarks section,50 the adjudicator said that Claim 1 was approved because it had
        “an affirmative response to this section” and “this response is sufficient to meet the
        substantial evidence standard.” However, the adjudicator that reviewed Claim 2 noted,
        “the claimant does not describe a complaint.” We presented these issues to the officials
        representing the Neutral, who explained that each claim is decided based on the
        discretion or judgment of the adjudicator and that both decisions, although different, were
        made in accordance with guidance established by the Neutral.



46
   We selected additional claims from a file the CA provided us that contained 17,124 claims with provisional
adjudications by the Neutral, as of June 11, 2012. We also had “read only” access to the CA’s system of records
that we used to review claims, conduct additional research, and update our sample materials, as needed.
47
   We applied basic computer analytics, such as filters, sorts, and matches to the data. Additionally, we manually
searched for short answers in length, keywords, and phrases similar to claims in our random sample.
48
   Ten different adjudicators established provisional decisions on these 20 claims.
49
   We reviewed the entire claim, and did not note significant differences. Also, we did not find evidence in the
claim form or any attached materials that covered the components of question 7G.i.
50
   In a database used to document the Neutral’s review, adjudicators could include any additional information about
their findings.

10      AUDIT REPORT 50601-0001-21
         Treatment of Active Discouragement

         Adjudicators reached different conclusions for claims where the claimants’ answers
         described how they were actively discouraged by USDA personnel, but did not directly
         state that they complained to a U.S. Government official. We identified five claims in
         our random sample with this specific condition. The adjudicators approved three of the
         claims, but denied two other claims. The adjudicators who approved the claims in our
         sample and other similar approved claims in the universe included remarks that indicate
         they believed a discrimination complaint was established because the claimants described
         their discouraged experience. However, the adjudicators who denied similar claims left
         remarks that indicated there was not sufficient evidence of a complaint.

         The settlement agreement states that the Neutral must determine if there is evidence of
         active discouragement when the claimant “constructively applied” for a loan or
         non-credit benefit. The settlement agreement also provides examples of active
         discouragement.51 These include statements from USDA officials that no funds were
         available, no applications were available, or that USDA was not accepting or processing
         applications at that time. The settlement agreement does not address active
         discouragement’s relation to the discrimination complaint, or whether active
         discouragement is sufficient to establish a complaint. However, some adjudicators used
         active discouragement as sufficient evidence to establish a discrimination complaint,
         while others did not use active discouragement as sufficient evidence to establish a
         discrimination complaint.

         We expanded our review beyond the random sample to the universe of provisional claims
         to determine if there were additional claims of this type. We searched for these claims
         using key words in the adjudicators’ comments.52 We discontinued our search after
         identifying 23 additional claims with active discouragement mentioned in the
         adjudicators’ comments. The adjudicators approved 12 of the 23 claims and denied the
         other 11 claims. We concluded that more claims with this type of inconsistency exist
         because we stopped our analysis before searching the more than 17,000 provisional
         claims in the universe.

         We reviewed 14 of the 23 claims that, in our opinion, were similar to our sample claims,
         and reviewed these claims in their entirety.53 Our review disclosed that although the
         14 claims described active discouragement and did not state that a complaint was made,
         the adjudicators had denied 10 and approved 4 of the claims. For example, one
         adjudicator remarked that a written answer “described active discouragement, but not a
         complaint” and, for that reason, denied the claim. Another adjudicator remarked that the


51
   The BFDL settlement agreement dated February 18, 2010 (revised and executed as of May 13, 2011), page 24,
section V.C.2 (b) (1-3).
52
   First, we used a filter to identify only claims that checked “yes” to question 7G. Next, we manually searched for
adjudicators’ comments that indicated active discouragement was used to describe the claimants’ complaint.
Adjudicators were not always required to provide comments, but we found that adjudicators often left comments to
support the reason for their decision.
53
   Eight different adjudicators provided provisional decisions on these 14 claims.

                                                                        AUDIT REPORT 50601-0001-21               11
         claimant “was denied the opportunity to apply (active discouragement)” and approved the
         claim because such a statement was “sufficient to meet the standard of proof.”

         There was one claim from our random sample that most clearly illustrated the lack of
         consistency. The claim shared almost the exact same language used in the written
         answers of six other claims in the universe.54 The adjudicators treated these cases of
         active discouragement differently, denying three claims and approving four claims.55 The
         Neutral’s officials agreed that when the seven claims were presented together, it made a
         compelling case to perform more work to ensure consistency of claim decisions.

         Officials representing the Neutral stated that the treatment of active discouragement cases
         was often discussed during the periodic meetings they held with adjudicators. As a result
         of these discussions, the Neutral revised its written guidance for adjudicators to include
         more detailed instructions about how to handle the narrative answers on discrimination
         complaints. The officials stated that claims with active discouragement would be
         reexamined under the more current guidelines.

Based on the results from our sample and subsequent searches in the universe, we determined
that adjudicators were making inconsistent decisions that were not detected by the Neutral’s
quality control process. We presented our conclusions to the Neutral’s officials in October 2012.
We discussed our concerns with the Neutral before decisions were finalized to allow time to
consider our results, implement additional actions, and ensure claimants received the fairest
treatment possible. We proposed that the Neutral take additional action by searching the
universe of provisional claims for inconsistent decisions. Following our discussions in the fall of
2012, the Neutral initiated an analysis to search for potential inconsistent decisions and address
our concerns by applying analytics, and conducted additional reviews. The Neutral provided
written procedures to support its preliminary reviews in March 2013.

In June 2013, the Neutral provided updated procedures and results for the quality control process
designed to address our concerns. This information illustrated that the Neutral developed over
100 search terms to run against the universe of claims, based on the examples of inconsistent
decisions we presented. The Neutral’s searches identified nearly 4,000 claims with potential
inconsistencies. After further refining the search results, the Neutral reexamined over
2,000 provisionally adjudicated claims and changed over 200 provisional decisions to ensure
more consistency in the claims process.

The Neutral also provided information about three additional quality control measures that were
implemented to oversee the difficult process of adjudicating thousands of claims. For instance, if
the Neutral’s provisional decision did not agree with the law firm’s initial conclusion, a different
adjudicator reviewed the claim again. The Neutral also implemented a quality control measure
that included periodic analyses by statisticians to determine if provisional decisions among
adjudicators were reasonably consistent. If an adjudicator’s overall approval and denial

54
   In other words, these claims were basically identical and, if identified, the similarities should have alerted the
Neutral to review multiple claims filed for one farm operation (see Finding 2) or raised a potential fraud concern.
55
   To identify these six claims, we used automated matching and manual searches, based on keywords and unique
phrases.

12       AUDIT REPORT 50601-0001-21
percentages were outside of an expected range, the statisticians selected a random sample of the
adjudicator’s claims for additional review. Lastly, the Neutral designated a quality control team
to review all denied claims a second time because denied claimants have no further rights to
appeal the Neutral’s final decisions.56 According to documentation the Neutral provided, over
15,000 claims were reviewed as a result of these 3 quality control measures, which resulted in
changes to more than 1,000 provisional decisions.

To address our concerns, the Neutral took actions that demonstrate reasonable efforts to ensure
fair, consistent, and equitable decisions. In addition, we did not find anything other than the
inconsistent provisional adjudication of claims to indicate that the Neutral57 was not adequately
implementing the claims process. After reviewing the Neutral’s written procedures and
examining the results of its quality control measures, it appears that the Neutral designed quality
control measures to ensure a fair claims process. We plan to test the effectiveness and
implementation of the Neutral’s actions to address inconsistent decisions in a subsequent audit.




56
   The BFDL settlement agreement dated February 18, 2010 (revised and executed as of May 13, 2011), page 18,
section V.A.8 states that determinations are final and not reviewable.
57
   The two other findings in this report relate to CA responsibilities.

                                                                    AUDIT REPORT 50601-0001-21                 13
Finding 2: Multiple Claims Filed for Individual Farming Operations and
Class Members Not Detected
The CA had not identified all instances where multiple claims may have been filed for the same
farming operation58 or individual class member.59 We attributed this, in part, to oversights by the
CA’s analysts when they manually searched the universe of submitted claims to identify multiple
claims that may have been filed for one farming operation or class member. Also, while the CA
performed internal quality control reviews of the manual search process, those reviews did not
include a comparison of all submitted claims. From our random sample of 100 claims, a total of
7 had additional related claims. We estimated at the time of our analysis that there were at least
1,199 additional related claims.60 Thus, there was an increased risk of overpayments per farming
operation or class member, which—depending on the number of claims submitted—could have
reduced the amount of funds available for eligible claimants, and could have resulted in improper
payments. The claims process was not complete at the time of our analysis, and the CA has
since implemented reasonable procedures to identify related claims, which we explain later in
this finding.

The settlement agreement states that each farming operation or class member with a successful
claim is entitled to one award payment of up to $62,500.61 If multiple individuals file a claim for
the same farming operation, each approved claim would be eligible to receive only a portion of
one award for the farming operation—that is, the individuals would split the total award (up to
$62,500). Additionally, only one claim is eligible to receive an award when more than one
individual files on behalf of the same class member. The Neutral will determine if multiple
claims were filed for the same farming operation and/or individual class member and allocate
award payments among approved claims. For the BFDL settlement, the CA assisted the Neutral
by identifying instances where multiple claims may have been filed on behalf of a single farming
operation or one class member.

To determine how the CA identified multiple claims that may have been filed on behalf of an
individual farming operation or class member, we evaluated the criteria and written procedures
used by CA officials to search for related claims62 in the CA’s universe of all submitted claims.

58
   The settlement agreement did not define a farming operation. The Neutral defined it as two or more individuals or
entities that collectively raise and/or cultivate crops, livestock, fish, timber, or other farm commodities to be sold for
profit.
59
   Individuals may submit claims on behalf of deceased or mentally or physically limited class members (see
Exhibit B, on pages 28 and 29 of the report).
60
   We are 95 percent confident that between 330 (1.9 percent) and 2,067 (12.1 percent) claims have other related
claims not identified by the CA in the universe of 17,124 provisionally adjudicated claims that had been submitted,
as of June 11, 2012. The number of unidentified claims may be higher because more than one additional claim
could be filed for the same farming operation or class member.
61
   The BFDL settlement agreement dated February 18, 2010 (revised and executed as of May 13, 2011), pages 7-8,
section II.KK-NN and page 15 section V, states that the $62,500 award consists of $50,000 paid to the claimant and
$12,500 paid to the Internal Revenue Service for the claimant’s tax liability on the award. The claim amount can be
reduced, due to limited funds. This amount does not include $3,750 for a non-credit award or payments for
outstanding FSA loans.
62
   The CA and Neutral consider claims to be “related” or “related parties” when there are significant similarities in
claim information, such as name, Social Security Number, address, or farming location. Claims can also be
considered related for other reasons, such as when multiple claims are submitted for the same late-filing request.

14       AUDIT REPORT 50601-0001-21
These procedures were the only documented control the CA provided to us for related party
claim identification at the time of our review. We concluded that the criteria used by CA
officials (claimant names, Social Security Numbers (SSN), and addresses) were adequate to
detect related claims submitted by individuals for the same farming operation or class member.
To test the adequacy of the procedures used by CA officials to match related claims, we
compared our random sample of 100 claims63 to the CA’s universe of claims.64

Our comparison, using the CA’s criteria, identified 30 claims in our random sample that had
other related claims. When we compared our results to the CA’s results, we found that the CA
had detected all related claims for only 23 of the 30 claims we identified in our random sample.
In three instances, CA officials did not identify any of the other related claims we identified in
our comparison. In four instances, CA officials had identified some, but not all, of the related
claims we identified in our comparison. For example, we identified four other related claims to
one of the claims in our sample, but CA officials only identified two of the related claims. Our
finding raised concern that, while the criteria and procedures used by CA officials appeared
adequate, the CA’s implementation of the procedures was inadequate.

We reviewed all of the claims related to these seven claims in more detail to determine if they
were, in fact, multiple claims for the same farming operation or class member, or were legitimate
individual claims. Our review of these claim forms included the comparison of specific narrative
information, such as acreage farmed, the type of crops farmed, livestock, and farm location (see
Exhibit B, page 31 and 32 of the report). We also examined class member SSNs and death
certificates. Overall, we determined that three of the seven claims in our random sample would
receive excess award payments if not identified and provided to the Neutral for proper
adjudication.65

One of the three claims in our random sample had four other related claims that had been
submitted for the same farming operation. We identified these claims through searches using the
class member and representative’s names, SSNs, and addresses. At the time of our analysis, the
CA had not identified a relationship among all of these parties. We reviewed the information on
the claim forms and determined that, in our view, all five claims were filed for the same farming
operation. The specific information that led us to this conclusion was that the claims all reported
similar acreage and type of crops farmed at the same farm location. CA officials agreed with our
conclusion and updated their records to recognize these as related claims. Because the
five claims were submitted for the same farming operation, the amount awarded should be split
among the approved claimants. If the CA did not identify all the claims as related, each one
could have potentially received a full award, or $312,500 in total awards, resulting in an
overpayment of $250,000.

The CA did not provide a specific reason for not identifying related party claims. However, we
concluded that oversights by the CA’s analysts during their manual search for multiple related

63
   The CA had 17,124 provisionally adjudicated claims in its universe of submitted claims on June 11, 2012, when
we selected our sample (see Exhibit A–Statistical Plan).
64
   The CA had received almost 40,000 claims as of July 12, 2013.
65
   The four other sample claims and respective related claims did not have similar enough information for us to
conclude that they were filed for the same farming operation or class member.

                                                                      AUDIT REPORT 50601-0001-21              15
claims were the likely cause. To identify related party claims, a CA analyst would manually
search the universe of claims using the name, SSN, and address fields on the claim. To perform
the searches, the analyst typed the information from the claim into the database’s search feature
for each of the different fields and visually reviewed the results for matches. The analyst then
manually entered the tracking number66 of each claim with matching information into the
database to record the possible relationship. We concluded that oversights when performing
these searches—such as typographical mistakes when entering search information, overlooking
related claims when reviewing search results, or not recording tracking numbers of identified
related claims in the database—likely were the primary reasons why the CA’s analysts had not
identified the related party claims in our random sample.

The CA’s internal quality control process did not examine every claim and was performed before
the CA had received all claims. These limitations in the process also likely contributed to the
lack of detection of related party claims. For example, three of the seven cases where the CA
had missed a related party claim did not undergo a quality control review. Two other instances
with unidentified related party claims were reviewed as part of the quality control process, but
the review occurred before the CA received the related claims. The other two claims were
reviewed after the unidentified related claims were submitted, but the review did not detect them.
Therefore, we concluded that the quality control process would not be effective until the CA had
received all claims. In addition, we determined that the CA needed to perform the searches again
once all claims were submitted in order to sufficiently identify related party claims for the
Neutral to review.

We met with CA officials in August 2012 to discuss our concern. The CA officials
acknowledged that related claims were missed and stated that they will search for related claims
again before award payments are made. The CA planned to perform searches using names,
SSNs, and addresses, and planned to conduct additional tests, once it received all claims. The
additional tests include searches to identify claims with similar farm location descriptions,
co-borrowers identified in USDA loan information, and farm co-operators listed in narrative
responses. The CA officials stated that these searches would be performed using an automated
process, rather than relying on the manual search process. The results would be provided to the
Neutral, who will determine if the related claims were filed for the same farming operation or
class member.

We agree with the CA’s proposed actions, and believe that those actions should be more
effective than the CA’s initial searches. The new searches will include more detailed
information from the claim forms. In addition, the CA will perform automated analyses after it
has received all claim forms, which should reduce the risk of errors from a manual process. We
requested documentation of the CA’s planned procedures and search results when we discussed
this concern with CA officials in August 2012. This information would have further
substantiated the CA’s plans and would have allowed us to obtain a more comprehensive
understanding of the intended search process. We received this information in June 2013.




66
     The tracking number is a unique identification number assigned to each claim.

16         AUDIT REPORT 50601-0001-21
After we discussed our concern with the CA officials, they completed the planned searches and
sent the results to the law firm assisting the Neutral with Track A preliminary reviews. Prior to
evaluating the results, the law firm first applied filters,67 so that the search returns were more
manageable. After applying the filters, the law firm reviewed over 5,200 scenarios, comprised of
over 13,500 claims, to initially determine which groups of claims were filed for the same
farming operation or class member. The law firm’s results were provided to the Neutral to
determine when multiple claims were filed for a single farming operation or class member. In
March 2013, the Neutral provided us with preliminary results of the law firm’s related party
claim reviews.

The CA and Neutral provided additional written information to us in June 2013 about the related
party claims identification and review processes they implemented. The CA provided written
project plans for each of the automated searches conducted to identify related party claims. Each
project plan included an objective and listed the searches that were performed across various data
fields. The CA and the Neutral designed the searches to be broad in an attempt to identify all
possible related claims. The project plans state that the automated searches were initially
performed in October and November 2012, and again in June 2013. The CA provided results of
the searches it performed, based on SSN, address, farm location description, and related claim
comments in the database. The results also included instances where the CA identified
co-operators in claim responses or in USDA loan information. The Neutral reviewed the search
results and provided us with its review guidelines and related party claim determinations.

The information we received in June 2013 substantiates that the CA implemented reasonable
procedures beyond the initial search process to identify related party claims for the Neutral to
evaluate. This material also supports that the Neutral used the search results to determine when
multiple claims were filed for the same farming operation or class member and to allocate
awards based on these conclusions. We will test the effectiveness of the CA and Neutral’s
actions in a subsequent audit.




67
  The filters included narrowing the address search results to only those groups of five or more claims sharing the
same address and narrowing the farm location description to groups where the matched description started with a
number or “Route” or “Rte.”

                                                                        AUDIT REPORT 50601-0001-21                17
Section 2: Class Membership Determination
Finding 3: Pigford Participants Applied for BFDL Awards
Individuals who participated in the Pigford settlement were prohibited from receiving an award
in the BFDL settlement. However, we determined that the Neutral’s adjudicators had
provisionally approved at least 20 individuals who participated in Pigford to receive awards in
the BFDL settlement. The CA was responsible for determining whether claimants were eligible
to participate in BFDL, but at the time of our analysis, the CA had not always identified and
removed ineligible BFDL claimants prior to provisional adjudication. The improper payment of
awards to Pigford Participants would reduce the funds available to claimants eligible to receive
payments through the BFDL settlement. Subsequent to our analysis, the CA provided us with a
written plan to detect Pigford Participants who submitted claims for the BFDL settlement. We
concluded that the CA’s plan, which we discuss later in this finding, was appropriately designed
to detect such claimants.

The BFDL settlement agreement states that to be an eligible class member, a claimant cannot
have participated in the Pigford settlement.68 The settlement agreement also states that the CA is
responsible for determining if BFDL claimants have previously obtained a decision on their
discrimination complaints. Further, the CA is required to make this determination through the
comparison of information provided on the Pigford Participants List69 and Pigford Opt-Out
List.70 The Pigford Participants List identifies individuals who had their discrimination
complaint heard in the Pigford settlement. The Pigford Opt-Out List identifies individuals who
chose not to take part in the Pigford settlement and, thus, forfeited the right to file a claim in that
settlement. If a claimant appears on either of those lists, the settlement agreement requires that
the claimant be deemed ineligible. Another aspect of determining eligibility is that the CA shall
verify that claimants are included on the Pigford Timely 5(g) List (which is referred to hereafter
as the 5(g) List),71 which identifies individuals who properly submitted a late-filing request and
are considered to be eligible BFDL class members.72 If a claimant was not listed on the
5(g) List, the claimant could still be allowed to participate in BFDL, provided that he or she



68
   The BFDL settlement agreement dated February 18, 2010 (revised and executed as of May 13, 2011), page 15,
section V and pages 20-21, section V.B.4(b).
69
   The “Pigford Participants List,” received January 20, 2012, identified 23,986 individuals who (1) submitted a
claim under the Pigford Consent Decree on or before October 12, 1999, or (2) submitted a late-filing request under
5(g) of the Pigford Consent Decree after October 12, 1999, which was determined by the Pigford Arbitrator to
satisfy the “extraordinary circumstances” requirement and, therefore, was allowed to participate in the Pigford
settlement.
70
   The “Pigford Opt-Out List,” received January 20, 2012, identified 230 individuals who would not participate in
the Pigford I Consent Decree. In addition, in response to GAO-13-69R Pigford II, the CA will determine if any
claimant has received a separate non-Pigford related judicial decision on a discrimination case, which could render
him or her ineligible for the BFDL settlement.
71
   The “Pigford Timely 5(g) List,” received January 20, 2012, identified 89,579 individuals who submitted late-
filing Requests under Section 5(g) of the Pigford Consent Decree after October 12, 1999, and on/or before
September 15, 2000.
72
   The BFDL settlement agreement dated February 18, 2010 (revised and executed as of May 13, 2011), page 20,
section V.B.4(a).

18      AUDIT REPORT 50601-0001-21
could establish by a preponderance of the evidence that he or she submitted a late-filing request
in Pigford.

To determine whether the CA completed its responsibilities in accordance with the settlement
agreement, we compared critical information, such as name and address data, on the Pigford
Participants and Pigford Opt Out Lists to the same information on the 5(g) List. We compared
over 24,000 individual records on the Pigford Participants List and Pigford Opt-Out List to the
more than 89,000 individual records on the 5(g) List. By definition, if an individual was listed
on either the Pigford Participants or Pigford Opt-Out Lists, the individual should not have been
on the 5(g) List as being eligible to participate in the BFDL settlement. However, our
comparison identified 68 Pigford Participants whose names also appeared on the 5(g) List.73
This finding, in our view, reduces the reliability of the 5(g) List as a source for making eligibility
determinations.

The settlement agreement required the CA to use the Pigford Participants and 5(g) Lists to
determine eligibility. We discussed our findings with CA officials, who stated that they were
aware that there were duplicate records among the Pigford Participants and 5(g) Lists, as the lists
were never intended to be used in another settlement. The CA officials explained that they
created and maintained the lists, but did so at a time when they did not know that the BFDL
settlement would occur and require the use of the Pigford Participants and 5(g) Lists. Thus, they
took no action to ensure that individuals were not listed on both the Pigford Participants and
5(g) Lists.

The CA officials acknowledged that there are instances where individuals appear on both the
Pigford Participants and 5(g) Lists, which could cause confusion when making eligibility
determinations for the BFDL settlement. However, the officials did not intend to update or
amend the lists to remove these conflicting records. Instead, they planned to complete additional
procedures at the end of the claim process, which do not involve the lists, to eliminate ineligible
Pigford Participants and ensure that only eligible BFDL claimants receive an award.

The CA officials planned to complete a SSN comparison of all BFDL claimants against those of
all Pigford Participants. The CA has access to the SSN of all Pigford Participants, which will
enable it to complete this procedure. If the CA identifies a match between the SSN of a BFDL
claimant and a Pigford Participant, the claimant would be reviewed again for class membership
eligibility. Those claimants identified as Pigford Participants will be deemed ineligible for the
BFDL settlement.

The CA officials stated that these procedures will enable them to identify and remove ineligible
Pigford Participants from the BFDL settlement. We agree that the additional procedures should
be effective because the use of SSNs, which are unique to the individual, should enable CA
officials to make exact matches and remove ineligible Pigford Participants. The CA should
follow the procedures as described to ensure that Pigford Participants are removed from
consideration for BFDL awards. If the CA does not perform the procedures, the 68 ineligible
individuals that appear on both lists could receive improper payments.


73
     We did not identify any duplicate names between the Pigford Opt-Out List and 5(g) List.

                                                                         AUDIT REPORT 50601-0001-21   19
To confirm our initial analysis of duplication between lists, we searched the CA’s claimant
database for each of the 68 Pigford Participants by name to determine if the CA had identified
them as eligible or ineligible class members. Specifically, we set out to determine whether any
of the 68 individuals had submitted a claim for BFDL, and, if so, whether the CA sent the claim
to the Neutral for adjudication. We found that 37 of the 68 individuals submitted a BFDL claim,
as of October 1, 2012, and the CA had sent 32 of those claims to the Neutral for adjudication.74
The Neutral’s adjudicators had provisionally approved 20 of those claims, which, if paid, would
result in distributions to claimants identified as Pigford Participants.

To determine if there were other potential Pigford Participants on the 5(g) List, we used
additional criteria to perform another comparison of the Pigford Participants and 5(g) Lists. Our
criteria included business name, representative name, city, State, and zip code. We used the
criteria to make 30 different comparison queries of the Pigford Participants and 5(g) Lists. Our
comparisons identified another 330 possible matches between the lists, not including the original
68 noted above. Based on the fact that the CA acknowledged the issue and proposed satisfactory
corrective action, we did not conduct additional research to confirm that the 330 matches were
definitely claimants who had participated in the Pigford settlement. However, our analysis does
indicate that additional cases above the confirmed 68 cases could exist.

We discussed our concern that ineligible Pigford Participants will receive BFDL awards with
CA officials. They described a procedure intended to identify and deny ineligible claimants
based on a SSN comparison of Pigford Participants and BFDL claimants. We agree that this
procedure can effectively identify ineligible BFDL claimants. Therefore, the CA needed to
compare the SSNs of all BFDL claimants and Pigford Participants and identify and remove
Pigford Participants from consideration for BFDL awards.

In May 2013, CA officials provided us with preliminary review results that identified 67 BFDL
claimants who were denied because they were Pigford Participants. The CA officials noted that
additional claimants will be denied as they continue their analysis. We met with CA officials
again in June 2013. After the meeting, the CA provided a documented plan to identify
individuals who filed a claim in BFDL, but were also Pigford Participants. The CA’s plan
included an automated SSN verification procedure where Pigford Participant and BFDL claimant
SSNs would be compared, and any matches would be subject to in-depth verification. The
verification would include a review of all documents and notes in the CA’s database to
determine if a BFDL claimant identified by the SSN match, or by other means,75 also
participated in Pigford. The CA’s verification guidelines state that claims determined to be
submitted by Pigford Participants are not permitted to participate in the BFDL settlement.




74
   Five claims were not sent to the Neutral. The CA determined three claims were incomplete, and therefore did not
forward the claims to the Neutral. Those three claimants received denial letters in January 2013. The CA identified
the other two claimants as non-class members; therefore they were determined ineligible to participate in BFDL.
Those two claimants received denial letters in August and December 2012, respectively.
75
   Matches identified by other means include those found during claims processing or by the Neutral during
adjudication.

20      AUDIT REPORT 50601-0001-21
In July 2013, the CA provided us with an update on the process to identify Pigford Participants.
The CA informed us that it completed preliminary SSN searches and identified 880 potential
SSN matches. The CA reviewed these matches in detail and confirmed that 197 matches were
Pigford Participants who submitted claims for BFDL. The CA stated that these claims are now
denied. We will evaluate the effectiveness of the CA’s completed process in a subsequent audit.




                                                           AUDIT REPORT 50601-0001-21        21
Scope and Methodology
We conducted our audit of BFDL by meeting with the CA in Beaverton, Oregon; the initial
Track A reviewing firm in Glen Allen, Virginia; the Track A Neutral in San Francisco,
California; and the Track B Neutral, Co-Lead Class Counsel, as well as DOJ, FSA, USDA
Office of the General Counsel (OGC), and USDA departmental officials in Washington, D.C.
We also traveled to Alabama, Mississippi, and North Carolina to meet with 19 claimants and
contacted 8 additional claimants via telephone to discuss their claims.76

The settlement agreement establishes that the Neutral shall make every reasonable effort to
complete its adjudication determination within 30 days of receipt of a claim. In the course of our
work, we learned that the Neutral had not made any final adjudication determinations. Rather,
the Neutral evaluated the claims and made “provisional” decisions that it does not consider final
until all claims have been submitted and all quality control measures have been completed. We
did not have access to provisional adjudication information until June 8, 2012. We, therefore,
selected a random sample of Track A claims with provisional adjudication decisions, as of
June 11, 2012.77 We expanded testing beyond our sample to the universe and judgmentally
selected claims with provisional adjudications to further develop our audit findings. 78 We also
randomly selected 44 Track B claims with provisional adjudication decisions as of
December 6, 2012.79 We limited our review to 32 claims, as we had no concerns with the
Track B process or the Track B claims we reviewed. On August 6, 2013, Class Counsel filed a
motion with the Court that finalized the adjudication of claims. The judge approved the motion
on August 23, 2013.

This report presents results from our review of procedures used by the CA, initial Track A
reviewing firm, and Track A and B Neutrals; analysis of our Track A and B sample claims; and
the claimant visits we conducted in October 2012. We discussed our findings with the CA and
Track A Neutral in August and October 2012, respectively, and in June 2013. At that time, the
claims process was not complete and quality control measures were still being developed and
performed. As a result, all quality control measures for the completion of the claims resolution
process were not available for our review.

To accomplish our objectives, we performed the following procedures:

     ·   Reviewed legislation, court documents, and the settlement agreement to obtain an
         understanding of the claims process.
     ·   Met with the CA, initial Track A reviewing firm, Track A Neutral, and Track B Neutral
         to obtain and evaluate their procedures for the claims process.

76
   Class Counsel attorneys were present for all conversations with claimants.
77
   There were 17,124 claims with provisional adjudication decisions as of June 11, 2012. We chose a sample of
100 because we expected a moderate error rate and wanted the ability to report findings for attributes with a
+/- 10 percent precision (confidence interval) at a 95 percent confidence level.
78
   We selected claims by applying basic computer analytics, such as filters, sorts, and matches to the data.
Additionally, we manually searched for short answers in length, keywords, and phrases unique to claims in our
sample.
79
   There were 80 Track B claims with provisional decisions as of December 6, 2012.

22       AUDIT REPORT 50601-0001-21
     ·   Used the CA’s database to obtain information for each sample claim.
     ·   Reviewed the CA’s process to determine if sample claims were timely and complete, and
         if class status was established. We also evaluated claim responses to identify if they met
         the necessary elements for approval.
     ·   Searched the CA’s database to find claims potentially filed for the same class member or
         farming operation as those in our sample, and to determine if similar claims were
         adjudicated consistently.
     ·   Interviewed Class Counsel, DOJ, FSA, and USDA OGC officials to obtain an
         understanding of the litigation that led to the settlement agreement.
     ·   Gained an understanding of the information systems used in the claims process and
         assessed its controls. We also reviewed a selection of general and application controls
         over the CA’s information systems to determine if they were present, complete, and
         valid. This review included an evaluation of application access, separation of duties,
         data input restrictions, and information technology backup and recovery procedures.
     ·   Reviewed the Pigford Timely 5(g) List, Pigford Participants List, and Pigford Opt-Out
         List to determine if individuals were recorded on multiple lists.
     ·   Analyzed over 200 claims from 8 of 50 fraud patterns the Neutral identified as
         “suspicious.”
     ·   Communicated with GAO officials, who conducted an audit to examine and evaluate
         internal controls implemented to carry out the terms of the settlement agreement and to
         identify and deny fraudulent or otherwise invalid claims.

We performed audit fieldwork from January 2012 through July 2013. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective.

The settlement agreement limited the amount of evidence available because Track A claims are
evaluated using the substantial evidence standard. This burden of proof recognizes that most
claimants cannot meet the evidentiary standards required in traditional litigation because the
alleged incidents occurred long ago, and USDA failed to investigate civil rights complaints
during the relevant time period.80 As a result, the evidence used to conduct our audit primarily
consisted of information provided by claimants, which generally did not include supporting
documentation. Despite this limitation, we believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective.




80
 U. S. District Court Judicial Order and Opinion approving the settlement agreement filed October 27, 2011,
Misc. No. 08-0511.

                                                                      AUDIT REPORT 50601-0001-21              23
Abbreviations
BFDL..........................In re Black Farmers Discrimination Litigation
CA ..............................Claims Administrator
DOJ ............................Department of Justice
FSA ............................Farm Service Agency
GAO ...........................Government Accountability Office
OGC ...........................Office of the General Counsel
OIG ............................Office of Inspector General
Pigford .......................Pigford vs. Glickman
SSN ............................Social Security Number
USDA.........................Department of Agriculture




24     AUDIT REPORT 50601-0001-21
Exhibit A: Statistical Plan

        Sampling Methodology for Audit Number 50601-0001-21
            In re Black Farmers Discrimination Litigation
Objective

This sample is designed to support OIG Audit 50601-0001-21. The audit objective is to conduct
a performance audit based on a statistical sample of adjudicated claims. To help achieve this
objective, we developed a representative random statistical sample for review. At the time of our
sample, the Neutral had not made final adjudication decisions for any claims. Rather, the
Neutral was making provisional decisions that are not considered final until all claims have been
submitted and all quality control measures have been completed. The audit team, therefore,
reviewed the sample of selected claims with provisional adjudication decisions and provided the
results to an OIG statistician. The data were used to calculate estimates for tested criteria.

Audit Universe

The CA provided the audit team with the universe list, which consisted of 17,168 Track A claims
with provisional adjudication decisions, as of June 11, 2012. After we selected the sample and
started field work, we discovered that there were 44 claims, which did not have provisional
adjudication decisions, as initially stated. To keep consistent with the definition of the audit
universe, we excluded those 44 claims from our list. Hence, the total number of claims in our
universe dropped to 17,124. All estimates are projected to this final universe total.

Sample Design

Given the data structure diversity in the audit programs (data factors) and audit resource
requirements (resource factors), we developed several design ideas to help us make informed
decisions about which design would be feasible for the objective of this audit. We considered
various sample designs - simple random, stratified, multi-stage selections, etc. To keep our
sample size as low as possible, while still achieving statistical representation of the universe, we
decided to use a simple random sample for this audit. The sample size of 100 claims with
provisional adjudication decisions selected for review was calculated based on the following
factors:
    · Audit Universe - consisted of 17,124 claims with provisional adjudication decisions.
    · Expected Error Rate - because we had no historical information about an expected error
         rate, we assumed a 50 percent value in attribute testing scenario; i.e., each unit tested has
         a 50/50 chance of a “pass” or a “fail.” This is the most conservative assumption for this
         factor and leads to a higher sample size than any other assumed percentage.
    · Precision - we wanted to be able to report our estimates with a +/-10 percent precision in
         an attribute testing scenario.
    · Confidence Level - we are using a 95 percent confidence level for the reporting our
         estimates.

                                                               AUDIT REPORT 50601-0001-21          25
Results

Data provided to the statistician were analyzed using the complex sampling module of the
Statistical Package for Social Sciences program. Each sampled unit had a weight of 171.24; i.e.,
it represented approximately 171 claims in the universe. Results are projected to the audit
universe of 17,124 claims. Achieved precision, which is indicated by the confidence interval, is
reported for a 95 percent confidence level. All projections are made using the normal
approximation to the binomial as reflected in standard equations for a simple random sample.
All percentages indicated are from the universe of 17,124 claims; for example, 1,370/17,124 =
8.0 percent of the universe.

We note that at the time of review, the Neutral’s decisions were still provisional and could
change in either direction (to approved or denied) as the adjudication process continued to
evolve. In addition, quality control measures, which could affect adjudication, had yet to be
fully implemented and reflected in claim decisions. When compiling our results, we used the
conservative measures to project for each case. For example, the consistency issue we reported
on affected multiple claims, as the Neutral’s review of a group of claims with similar responses
could change multiple adjudication decisions. However, we are only projecting on one claim,
even though multiple claims may be affected by the review.

The summaries below show the results for each criterion tested. Measures presented include the
projected number of claims with exceptions. For each criterion estimate, we show the projected
number (estimate), the upper and lower bounds at a 95 percent confidence level, the actual
values observed in the sample, and the precision of each estimate. Interpretation of the results is
shown below the table.
                                                                                                                  Precision
                                                   95 Percent Confidence Interval                                (Margin of    Precision
                                                                                                                 Error) as a      as a
                                                                                     Coefficient                 Percent of     Percent
                                                     Lower             Upper
                                      Standard                                           of        Actuals           the         of the
     Criteria tested      Estimate      Error        Bound             Bound         Variation     found          Estimate     Universe
 1. Consistency issue
                              1,370      465.547             446             2,294          .340             8           67            5
 estimate
 2. Related party issue
                              1,199      437.840             330             2,067          .365             7           72            5
 estimate



Based on our sample results, we estimate that:

     1. For 1,370 claims (8.0 percent) in the universe, at least one similar claim with an opposing
        adjudication decision exists. We are 95 percent confident that this estimate ranges
        between 446 (2.6 percent) and 2,294 claims (13.4 percent) of the audit universe.
     2. For 1,199 claims (7.0 percent) in the universe, at least one related claim was not
        identified. We are 95 percent confident that this estimate ranges between
        330 (1.9 percent) and 2,067 claims (12.1 percent) of the audit universe.




26         AUDIT REPORT 50601-0001-21
Exhibit B: BFDL Claim Form
Below is the 15-page BFDL claim form, which contains the questions for claimants referred to in
our report.




                                                          AUDIT REPORT 50601-0001-21        27
28   AUDIT REPORT 50601-0001-21
AUDIT REPORT 50601-0001-21   29
30   AUDIT REPORT 50601-0001-21
AUDIT REPORT 50601-0001-21   31
32   AUDIT REPORT 50601-0001-21
AUDIT REPORT 50601-0001-21   33
34   AUDIT REPORT 50601-0001-21
AUDIT REPORT 50601-0001-21   35
36   AUDIT REPORT 50601-0001-21
AUDIT REPORT 50601-0001-21   37
38   AUDIT REPORT 50601-0001-21
AUDIT REPORT 50601-0001-21   39
40   AUDIT REPORT 50601-0001-21
Page 15 is for declarations and signatures.




                                              AUDIT REPORT 50601-0001-21   41
Exhibit C: Claims Administrator’s Response




                  Response from
     Epiq Class Action & Claims Solutions, Inc.




42   AUDIT REPORT 50601-0001-21
                                         M E M O R A N D U M 
 

TO:	          Gil H. Harden 
              Assistant Inspector General for Audit  
              Office of Inspector General 
              U.S. Department of Agriculture 
FROM:         Epiq Class Action & Claims Solutions, Inc. 
SUBJECT:  Draft Official Report relating to the Settlement of In Re Black Farmers Discrimination 
          Litigation  
DATE:	        September 27, 2013 
 

On August 29, 2013, the Office of Inspector General (“OIG”) for the United States Department of 
Agriculture provided an Official Draft Report, dated August 29, 2013, on the performance audit on the 
claims review process for Settlement of the In Re Black Farmers Discrimination Litigation (“BFDL”).  

Epic Class Action & Claims Solutions, Inc. (“Epiq”) in its role as Claims Administrator for the Settlement of 
BFDL provides the following clarifications in response to OIG’s Official Draft Report.  

Clarification regarding the Claims Administrator’s Role 

The Official Draft Report occasionally confuses the roles and responsibilities of the Claims Administrator 
with those of the Neutral.  Epiq was responsible for determining class membership, timeliness and 
completeness of the claims and maintaining the settlement claims database.  Epiq was not tasked with 
approving or denying claims on the merits, identifying single farming operations or deciding claims 
based on a fraud concern.  Those decisions rested solely with the Court‐appointed Neutral, comprised of 
a panel of jurists and experienced attorneys at JAMS and BrownGreer.  Epiq did not qualify the narrative 
answers provided in the claims.  Epiq processed claims and passed them along to the Neutral for 
adjudication.  Epiq provided assistance to the Neutral along the way, including conducting searches for 
key language in narrative answers based on criteria from the Neutral, matching or similar addresses, 
Social Security Numbers, and a host of other items designed to ensure the integrity of the claims and 
adjudication process.  The Neutral then used that information in deciding claims on their merits. 

Clarification regarding Pigford Timely 5(g) List 

Page 5 of the Official Draft Report states the following:   

          If a person appears on the Pigford Timely 5(g) List, which includes the names and 
          addresses of more than 89,000 people who submitted a late filing request under 
          Pigford, he or she will be considered an eligible class member for BFDL. 

Under Section V.B.4 of the Settlement Agreement, to be found by the Claims Administrator to be a Class 
Member (and therefore eligible to receive an award under the Settlement), a Claimant must have not 


                                                  Page 1 of 3 
only submitted a Late‐Filing Request (evidence of which is being on the Pigford Timely 5g list), but also 
cannot have obtained a determination on the merits of his or her discrimination claim.  Section 6 of the 
Court‐approved Claim Form explains that a claimant must satisfy both elements of Class Membership to 
qualify for an award under the Settlement, and each Claimant was required to acknowledge that they 
understood that the Claims Administrator would make a determination with respect to both of these 
elements of Class Membership.  There were Claimants whose names were on the Pigford Timely 5g list 
but who were found by the Claims Administrator to have received a “determination on the merits.”  
These Claimants would not be considered Class Members and would not be entitled to receive an award 
under the Settlement.  As a result, the Pigford Timely 5g list was not the sole indicator of whether a 
Claimant was a Class Member.   

Clarification regarding Participation in Pigford  

Page 5 of the Official Draft Report states the following:  

        Participation is defined as having obtained a determination (approved or denied) on 
        their discrimination claim in Pigford; having opted out of Pigford; or having obtained a 
        judgment from a judicial or administrative forum on the basis of their discrimination 
        claim.   

The above sentence implies that “participation” in Pigford is only if the claim was approved or denied by 
an adjudicator.  However, participation in Pigford is somewhat broader.  Specifically, individuals who 
submitted timely, but incomplete claims in Pigford, and who had their claims rejected by the Pigford 
Facilitator on completeness grounds, would be deemed to have received a “determination on the 
merits” of their claims and therefore would not be eligible for an award under the BFDL Settlement.  
This is because these Claimants did have an opportunity to participate in Pigford, even though their 
claim may not have been reviewed by an adjudicator because their claims were determined to be 
incomplete.  The Settlement Agreement defines “determination on the merits” to include individuals 
who “submitted a claim” in the Pigford claims process and therefore were “Pigford Participants” even if 
their claims were rejected on grounds of incompleteness in that process.  See Settlement Agreement §§ 
II.AA and V.B.4.b. 

In addition, this explanation of a “determination on the merits” is reflected in the Long Form Notice that 
was part of the Notice Program approved by the Court.  See Order Granting Preliminary Approval of 
Settlement Agreement, Certifying a Rule 23(b)(1)(b) Settlement Class, And For Other Purposes, Docket 
No. 175 (May 12, 2011) at ¶¶ 16‐19; see also Plaintiff’s Motion for Preliminary Approval of Settlement, 
Certification of a Rule 23(b)(1)(B) Settlement Class, and for Other Purposes, Docket No. 161 (March 30, 
2011) at Exhibit 5, Attachment 3, Appx. NP‐5.  




                                                 Page 2 of 3 
Clarification regarding Review of Prior Settlement Participants  

Page 9 of the Official Draft Report states the following:  

        GAO also reported the CA had not established agreed upon procedures, beyond 
        consulting the participant lists of two other discrimination settlements,31 for checking 
        whether applicants already obtained a judgment on a discrimination case in a judicial or 
        administrative forum. 

        31/  The two additional settlements are: (1) Keepseagle, which arose from the Keepseagle v. 
        Vilsack (1999) case and (2) Hispanic and Women Farmers and Ranchers Claims Resolution 
        Process which arose from the Garcia v. Vilsack (2000) and Love v. Vilsack (2000) cases.   

The GAO Report (at page 26) stated: 
 
      The Claims Administrator is responsible for determining class membership, including 
      that claimants have not obtained prior judgments on their complaints.  To satisfy this 
      requirement, it checks whether claimants appear in certain records—indicating they 
      obtained judgments in, or opted out of, Pigford I—and plans to check the participant 
      lists of two other settlements. It also asked USDA to check its records of judicial and 
      administrative determinations. USDA has not yet responded to the request. 

The Claims Administrator checked participant lists for the settlements in Pigford and Keepseagle.  
However, the Claims Administrator did not check the participants list for the Hispanic and Women 
Farmers and Ranchers Claims Resolution Process as that claims process is still ongoing and no final 
determinations have issued.   




                                                  Page 3 of 3 
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste and Abuse
e-mail: USDA.HOTLINE@oig.usda.gov
phone: 800-424-9121
fax: 202-690-2474

Bribes or Gratuities
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).

To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the
Assistant Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250­
9410, or call toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English
Federal-relay) or (800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
